<html>
<title> - IMPACT OF GREEN INFRASTRUCTURE AND LOW IMPACT DEVELOPMENT ON THE NATION'S WATER QUALITY, ECONOMY AND COMMUNITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                            IMPACT OF GREEN
                         INFRASTRUCTURE AND LOW
                       IMPACT DEVELOPMENT ON THE
            NATION'S WATER QUALITY, ECONOMY AND COMMUNITIES

=======================================================================

                               (111-140)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 30, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  U.S. GOVERNMENT PRINTING OFFICE
 58-491 PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman
NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
    Vice Chair                       DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
    Columbia                         VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi                 Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York              Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               TOM GRAVES, Georgia
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia
            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman
THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland Vice          Carolina
    Chair                            TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
    Columbia                         ANH ``JOSEPH'' CAO, Louisiana
MICHAEL E. CAPUANO, Massachusetts    PETE OLSON, Texas
GRACE F. NAPOLITANO, California      TOM GRAVES, Georgia
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
BOB FILNER, California
CORRINE BROWN, Florida
JOHN GARAMENDI, California
HANK JOHNSON, Georgia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)














                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Becher, Drew, Executive Director, the Pennsylvania Horticultural 
  Society, Philadelphia, Pennsylvania............................    18
Boncke, Bruce, P.E., Cheif Executive Officer, BME Associates, 
  Fairport, New York.............................................    16
Neukrug, Howard, P.E., Deputy Commissioner, Philadelphia Water 
  Department, Philadelphia, Pennsylvania.........................    20
Ortiz, Hon. Adam, Mayor of Edmonston, Maryland...................    10
Richards, Timothy, P.E., Nafsma Director and Stormwater Committee 
  Chair, Deputy City Engineer, City of Charlotte, North Carolina.    14
Schwartz, Hon. Allyson Y., a Representative in Congress from the 
  State of Pennsylvania..........................................     7
Yocca, David, Principal Landscape Architect/Planner, Conservation 
  Design Forum, Elmhurst, Illinois...............................    12

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Johnson, Hon. Eddie Bernice, of Texas............................    58
Mitchell, Hon. Harry E., of Arizona..............................    66

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Boncke, Bruce, P.E...............................................    67
Neukrug, Howard, P.E.............................................    79
Ortiz, Hon. Adam.................................................    92
Richards, Timothy, P.E...........................................   109
Schwartz, Hon. Allyson Y.........................................   128
Yocca, David.....................................................   132

                       SUBMISSIONS FOR THE RECORD

Edwards, Hon. Donna E., a Representative in Congress from the 
  State of Maryland, Environmental Council of the States, 
  Resolution 07-10...............................................     5
Neukrug, Howard, P.E., Deputy Commissioner, Philadelphia Water 
  Department, Philadelphia, Pennsylvania, ``Green City Clean 
  Waters, The City of Philadelphia's Program for Combined Sewer 
  Overflow Control, A Long Term Control Plan Update, Summary 
  Report''.......................................................    90
Ortiz, Solomon P., a Representative in Congress from the State of 
  Texas, American Rivers, ``Putting Green to Work: Economic 
  Recovery Investments for Clean and Reliable Water.''...........    24

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
   IMPACT OF GREEN INFRASTRUCTURE AND LOW IMPACT DEVELOPMENT ON THE 
            NATION'S WATER QUALITY, ECONOMY AND COMMUNITIES

                              ----------                              


                      Thursday, September 30, 2010

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:11 a.m., in 
room 2167, Rayburn House Office Building, Hon. Donna F. Edwards 
presiding.
    Ms. Edwards. Good morning. This Subcommittee began and is 
ending the 111th Congress by holding hearings on very similar 
topics.
    I have to say it is probably appropriate that we hold this 
hearing on this rainy morning on which we have received about 4 
and a half inches of rain in the last 48 hours. And I know I 
sat in traffic, along with my colleagues and others this 
morning, watching as the oil is on the road, and we know that 
the runoff is happening. So it is probably an appropriate 
morning to hold this hearing.
    In February of 2009, we held a hearing in this Subcommittee 
on sustainable water infrastructure. Today's hearing focuses on 
the impact of green infrastructure and on the Nation's water 
quality, economy and communities. As today's hearing will 
demonstrate, there are still many things we need to learn about 
green infrastructure and low-impact development.
    But in the intervening year and a half, we have also come 
very close to learning a lot of the advantages of this 
innovative approach. For example, nationally 30 percent of 
clean water and 29 percent of drinking water funds provided 
through the Recovery Act were used for green infrastructure and 
water and energy efficiency improvements.
    Six States used approximately half of their clean water 
infrastructure money on green projects. These numbers indicate 
that there is a growing demand for programmatic and financial 
support for green infrastructure projects, especially related 
to clean water and drinking water infrastructure.
    Green infrastructure approaches take a very different view 
to stormwater control. Instead of engineering the stormwater 
system to deal with increasingly large amounts of stormwater, 
these low-impact development approaches use technologies that 
aim to reduce the amount of stormwater that even enters the 
system. This is achieved through processes that encourage 
stormwater to infiltrate the ground or evaporate.
    Simple approaches such as green roofs, increased tree 
cover, disconnecting downspouts, and adding more green space 
can go a long way to reducing the amount of stormwater that 
enters the sewers. And in some circumstances, these 
technologies also can realize significant cost savings from 
municipalities and building owners. In this time of economic 
uncertainty and tight municipal budgets, it may behoove city 
planners to look in other directions for ways to deal with 
impacts of urban stormwater runoff than by solely falling back 
on traditional capital-intensive infrastructure approaches.
    The fact remains, however, that many of the technologies 
are new. They haven't been applied in all conditions in cities. 
And today, I hope to hear testimony that will answer a few 
questions.
    First, what barriers exist with regard to the increased 
adoption of green infrastructure technologies and approaches? 
Second, what can the Federal Government, both EPA and the 
Congress, do to reduce these barriers? And third, what 
processes do EPA and the States use, and should EPA and the 
States use, to balance the need to promote new technologies 
while at the same time protecting water quality?
    And finally, I would like to note that as we think about 
our water infrastructure options and our water quality goals, 
we can do better. We can do better than to discuss policies and 
approaches as either this or either that. We need to look 
beyond the disturbing vision of just an impassive concrete 
landscape or the pastoral vision of an Eden-like urban utopia. 
Instead, we have to think about what that balance is and the 
various tools that we have and those that we might have to 
bring to bear site-specific water quality problems.
    Not everything works in the same way and the same place. 
Increasing both options and information are two of the most 
vital tools we can provide for our State and municipal 
managers.
    So I look forward to looking beyond where we are today so 
that we can do better. And with that, I want to welcome our two 
panels today, including Congresswoman Allyson Schwartz of 
Pennsylvania, who has been a leader and champion on these 
issues.
    I will yield first to our Subcommittee's Ranking Member, 
Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Today the Subcommittee will explore another new and 
important topic, green infrastructure and low-impact 
development, and how it might help address some of the 
deleterious impacts that stormwater runoff can have on our 
Nation's water quality.
    One of the many factors that can affect the water quality 
of our lakes, rivers, bays and estuaries is stormwater runoff. 
The impervious surfaces found in the urban and suburban 
environment accelerate drainage through curb gutters and drains 
to nearby natural streams and water bodies. As it flows through 
the landscape, water can pick up pollutants and sediment and 
carry them into receiving waters. In a more naturally vegetated 
landscape, water tends to move more slowly and get soaked up by 
the soil and plants, and pollutants and sediment tend to be 
filtered out.
    Some have suggested that urban areas need to mimic the 
natural landscape by employing more green technologies or 
limited-impact designs to reduce the quantity and rate of flow 
of stormwater, and thereby reduce the impacts of stormwater on 
the environment. These measures may include green roofs, rain 
barrels, permeable pavement, rain gardens, and buffer zones.
    Green infrastructure can be expensive, and its 
effectiveness will vary depending on the characteristics of the 
areas where it is used. Green infrastructure, while effective 
at removing certain pollutants, may not be the optimal solution 
to each and every situation. Soil, hydrology, topography, 
weather, climate, and other conditions vary from region to 
region, from site to site, and over time.
    Nevertheless, where the right conditions exist, new 
technologies and designs can be cost-effective and efficient in 
managing stormwater. Where they work, those innovative features 
can reduce the need for traditional stormwater infrastructure.
    In our efforts to be more conscious of our environment, we 
must not lose sight of the cost and effectiveness of 
implementing new designs and technologies. We must not 
overprescribe remedies to address urban stormwater that will do 
little to improve the overall health of our waters.
    Municipalities need a variety of tools in their toolboxes 
of best management practices to address stormwater management. 
It is the local officials, both elected and professional, who 
must decide what are the best solutions for their specific 
circumstances. One-size-fits-all solutions or regulatory 
schemes to deal with impairments will not work for water 
quality improvement. Green infrastructure should never be 
considered as the only tool for improving our Nation's water 
quality. And by no means should it be a requirement imposed by 
the government.
    Municipalities and engineers need to stay educated on all 
the options, both traditional methods as well as new or green 
designs. Additional research and development of innovative 
technologies is also needed to help identify the most efficient 
and effective methods and add to the tools available to local 
officials.
    We all want the same goal, which is clean water, as we at 
the Federal level look at the Nation's stormwater policy. We 
must be careful that we don't impose solutions on 
municipalities that may not be the best fit, either technically 
or economically.
    I think we can accomplish a lot with education outreach to 
help local officials consider all options. Future solutions 
need to be science-based, economically feasible, and compatible 
with regional and site-specific conditions. Communities need to 
do a rigorous analysis of the cost and benefits of installing 
these technologies and decide for themselves the most 
appropriate course of action.
    And I look forward to listening to our panels and hope to 
learn from today's expert witnesses and certainly look forward 
to their testimony.
    With that, I yield back, Madam Chair.
    Ms. Edwards. Thank you, Mr. Boozman.
    Before we begin, I want to call attention to the resolution 
of the Environmental Council of the States, which was adopted 
in August 2010, that supports the use of green infrastructure. 
I ask unanimous consent that this resolution be made part of 
the record. Without objection.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Edwards. With that, I would like to welcome the 
Honorable Allyson Schwartz, who is a Member of Congress from 
the 13th District of Pennsylvania, and look forward to hearing 
your testimony. Good morning.

TESTIMONY OF THE HON. ALLYSON Y. SCHWARTZ, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Ms. Schwartz. Thank you, Madam Chairwoman. It is a pleasure 
to be back in this room.
    I did serve on T&I in my first term, so I spent a few hours 
in this room, and it is good to be back.
    So, good to see you.
    And to Ranking Member Boozman, I appreciate your being here 
and holding this hearing.
    I know you could have postponed it. But you are absolutely 
right; it is a good day to do it as we watch the heavy rains 
fall on us and fill our water system here.
    I am particularly pleased to testify about green 
infrastructure and some of the proposals I put forward, and to 
also offer some of the experience and introduction to the 
experience that Philadelphia has had and is having in working 
to implement green infrastructure along with the aging 
infrastructure.
    As you may know, Philadelphia is the home of the first 
public water system in the Nation. So we have a history of 
being innovative and trying to figure out how to make sure we 
have clean water for our population.
    We also are known as one of the greenest cities by having 
one of the largest public park systems in a big city in the 
country. So proud of our rich history, and want to build on 
that and build it in a green way.
    So I am pleased to testify on the importance of green 
infrastructure and my own proposal, the Green Communities Act.
    And Ms. Edwards knows of this legislation. We will talk 
more about it, and your proposal as well, and your leadership 
in this area.
    So I appreciate the opportunity to speak on this, and want 
to just start a bit by a little background on our Nation's 
infrastructure and the needs for green infrastructure. The 
water infrastructure needs of the United States are immense. 
And implementing green infrastructure solutions can enable 
municipal governments to better meet water quality standards 
while addressing other critical priorities in the communities.
    Benjamin Grumbles, the EPA's Assistant Administrator for 
the Office of Water under the Bush administration, wrote in 
2007, ``Green infrastructure can both be a cost-effective and 
an environmentally preferable approach to reduce stormwater and 
other excess flows into combined and separated water systems in 
combination with, or in lieu of, centralized hard 
infrastructure solutions.''
    It is the capacity of green infrastructure to meet multiple 
goals, which makes its implementation such a worthwhile and 
cost-effective investment. In addition to improving water 
quality to ensure compliance with standards that protect our 
health and welfare, green infrastructure has been demonstrated 
to attract business, increase property values, and improve 
people's perceptions about their communities. University of 
Pennsylvania research has shown that greening of vacant lots 
created a 37 percent increase in adjacent property values, 
while properties located next to a non-greened vacant lot saw 
their property values decrease by 20 percent.
    In addition, University of Wisconsin research demonstrates 
that putting trees in streetscapes of a business district 
improved visitors' perception of the location and typically 
resulted in longer shopping visits. Surprised me, but that is 
what they showed, which is great.
    Green infrastructure can create not only results in 
cleaner, safer water quality, but can also revitalize depressed 
economic areas and contribute to economic growth. It is a 
sensible and wise investment. In recent years, my home City of 
Philadelphia has been recognized as a national leader in 
implementing green infrastructure.
    Mayor Michael Nutter's Greenworks, a vision and a plan to 
become the greenest big city in America by 2015, has put 
Philadelphia on the cutting edge. Specific goals of Greenworks 
is increasing tree coverage by 30 percent by 2025 by planting 
300,000 trees; providing parks and recreation resources within 
10 minutes of 75 percent of residents by expanding open space; 
and making a $1.6 billion commitment to managing the city's 
stormwater by using green infrastructure.
    Philadelphia has used both private and public institutions 
to accomplish these goals. First, the mayor created the Office 
of Sustainability to promote sustainability efforts across all 
departments and agencies within city government. Their efforts 
include increasing the number of green roofs, expanding 
pervious pavement to additional 25.7 acres, and distributing 
more than 1,600 rain barrels. These efforts and other 
improvements to build efficiency, recycling, and alternative 
transportation have already led the city to be recognized 
nationally by the U.S. Chamber of Commerce for its commitment 
and achievements.
    Second, Philadelphia has strong community and philanthropic 
institutions that care about this. This includes the 
Pennsylvania Horticultural Society, which will present later, 
and the William Penn Foundation. They can muster the much 
needed human and capital resources in the private sector.
    And third, Philadelphia is fortunate to have a municipal 
water department--again, you will hear from them on the next 
panel--that is determined to find and implement the innovative 
solutions to address serious stormwater problems through green 
infrastructure.
    So while Philadelphia takes pride in its national 
leadership in green infrastructure innovation, we don't want to 
keep it to ourselves. We want to share our knowledge and 
experience with other cities large and small. That is why I 
have introduced the Green Communities Act, which is House bill 
2222, which aims to take the excellent work that we are doing 
in Philadelphia and disseminate it to communities across the 
country that are less experienced in the use and value of green 
infrastructure.
    Specifically, my proposal would authorize the Secretary of 
Commerce, through the Economic Development Administration, to 
partner with five nonprofit organizations with experience in 
implementing green infrastructure initiatives in order to work 
with 80 municipal governments across the country to build 
capacity in the implementation of green infrastructure.
    The Secretary of Commerce would select the communities with 
input from nonprofits and with the sensitivity towards areas in 
need for economic revitalization. The bill would authorize $180 
million over a 5-year period to accomplish this work. The 
proposal has received bipartisan and bicameral support in 
Congress. It has 24 cosponsors from many parts of the country 
and has companion legislation in the Senate.
    In addition, many businesses, environmental, and water 
agency organizations have expressed support. I would provide 
the Committee with a long list of the supporters.
    Just to highlight the support of this proposal that has 
come from business, the American Nursery & Landscape 
Association said of my bill, quote, ``Investments in landscape 
systems, such as those found in House bill 2222, will yield 
visible and high returns in the form of employment, economic 
and social benefits, and will increase the monetary value over 
time.''
    So, in summary, green infrastructure can play a vital role 
across the country in meeting our water infrastructure needs. 
The City of Philadelphia has made a commitment to do this, and 
I believe the approach can serve as a model across the country. 
My legislation, and I would include Congresswoman Edwards' as 
well, can better enable the dissemination of information and 
training necessary to offer beneficial green alternatives to 
gray infrastructure to address our Nation's water 
infrastructure deficiencies. It will yield multiple benefits, 
improved water quality, a cleaner environment, and enhanced 
economic development.
    Infrastructure investments can accomplish multiple goals 
and yield multiple public benefits. In tough financial times, 
the ability to meet multiple community needs with smart and 
targeted investments makes common sense.
    Thank you for your time this morning. I would be happy to 
answer any questions you may have.
    Ms. Edwards. Thank you, Congresswoman Schwartz.
    As is the custom when Members appear before our 
Subcommittee, we tend not to ask questions, unless Mr. Boozman 
has any questions.
    Mr. Boozman. No, I don't have any questions. But I do 
appreciate you being here this morning.
    Ms. Schwartz. Absolutely.
    Mr. Boozman. I was an example of stormwater runoff when I 
came in.
    But, again, your personal experience and your testimony has 
been very helpful.
    Ms. Schwartz. Thank you. And, again, thank you for the 
Committee's willingness to hear from some experts from 
Philadelphia who are doing this work on the ground. And both of 
your comments, both the Chairwoman and the Ranking Member, 
really speak to the fact that we could and should move ahead on 
mixing green infrastructure with that gray infrastructure that 
is going to get done as a more cost-effective, more innovative 
way to meet the water quality needs and to address some of the 
other economic and environmental goals that we all share. Thank 
you very much.
    Mr. Boozman. And Madam Chair, hopefully, maybe, at some 
point, we will get to go to Philadelphia, and she can show us 
some of these things firsthand.
    Ms. Schwartz. We would be delighted to have a field hearing 
in Philadelphia.
    Ms. Edwards. I am sure we could take a field trip to 
Philadelphia.
    Thank you, Congresswoman Schwartz, for your testimony this 
morning.
    And let's welcome the next panel. And if we want to make a 
shorter trip, I know that Mayor Ortiz from Prince Georges 
County in Maryland is here. We could take a drive down the road 
and take a look at some green infrastructure. I welcome the 
next panel.
    Joining us in this next panel is the Honorable Adam Ortiz, 
who is the mayor of Edmonston, Maryland. And joining us also, 
Mr. David Yocca, principal landscape architect and planner with 
the Conservation Design Forum in Elmhurst, Illinois; Mr. 
Timothy Richards, the NAFSMA director and Stormwater Committee 
Chair, and deputy city manager of the City of Charlotte, North 
Carolina, who is testifying today on behalf of the National 
Association for Flood and Stormwater Management Agencies; Mr. 
Bruce Boncke, CEO of BME Associates, in Fairport, New York, who 
is testifying today on behalf of the National Association of 
Home Builders; and Mr. Drew Becher, executive director of the 
Pennsylvania Horticultural Society from Philadelphia, 
Pennsylvania; and Mr. Howard Neukrug, Deputy Commissioner, 
Philadelphia Water Department in Philadelphia, Pennsylvania.
    With that, I welcome our panel, and I look forward to being 
corrected on the pronunciation of anyone's name as you give 
your testimony.

  TESTIMONY OF THE HONORABLE ADAM ORTIZ, MAYOR OF EDMONSTON, 
 MARYLAND; DAVID YOCCA, PRINCIPAL LANDSCAPE ARCHITECT/PLANNER, 
    CONSERVATION DESIGN FORUM, ELMHURST, ILLINOIS; TIMOTHY 
RICHARDS, P.E., NAFSMA DIRECTOR AND STORMWATER COMMITTEE CHAIR, 
DEPUTY CITY ENGINEER, CITY OF CHARLOTTE, NORTH CAROLINA; BRUCE 
  BONCKE, P.E., CEO, BME ASSOCIATES, FAIRPORT, NEW YORK; DREW 
  BECHER, EXECUTIVE DIRECTOR, THE PENNSYLVANIA HORTICULTURAL 
SOCIETY, PHILADELPHIA, PENNSYLVANIA; AND HOWARD NEUKRUG, P.E., 
      DEPUTY COMMISSIONER, PHILADELPHIA WATER DEPARTMENT, 
                   PHILADELPHIA, PENNSYLVANIA

    Ms. Edwards. Mayor Ortiz.
    Mr. Ortiz. Madam Chair, thank you very much for having me 
here today. I appreciate it.
    And also, thank you, Ranking Member Boozman.
    It is my pleasure to be here on behalf of the Town of 
Edmonston to talk about our experience implementing green 
infrastructure.
    Ms. Edwards. Excuse me, Mayor Ortiz, can you pull your 
microphone a little bit closer? Thank you.
    Mr. Ortiz. Is this better? OK. Thank you.
    It is a pleasure to be here today to talk about our 
experience in the small town of Edmonston. We are a small 
working class town about 7 miles from here located on the 
Anacostia River. We are very diverse. We are about equal parts 
white, black, and Hispanic. And I like to say that we are 
diverse in every way except that we don't have any rich people.
    In the last decade, our small town flooded four times. One 
time, 56 homes were underwater. The damages were substantial. 
Families lost everything in some cases. Furniture, books, 
important documents, and even automobiles were lost. In some 
cases, families lost absolutely everything except the clothes 
that they were wearing.
    Although we straddle the Anacostia River, we did not flood 
from it. We flooded from parking lots. We flooded from 
highways, roads, shopping centers, and roofs. We flooded from 
millions of raindrops that were collected from hard surfaces, 
then funneled down through storm drains through the underground 
concrete stormwater system to our little tiny town.
    We were overwhelmed. Two things conspired against us: the 
increasing severity of storms, and decades of bad stormwater 
planning and practice.
    In time, however, we were able to secure a $7 million flood 
control facility to help keep us dry. And we haven't flooded 
since.
    Through this ordeal, we learned that environmental neglect 
comes at a cost, and that cost is always paid by someone, 
somewhere, at some time. As we learned this lesson firsthand, 
we decided to take our responsibility for our own impact on the 
world around us.
    As Members of this Committee, you well know that all 
streets have an expiration date, a time when they must be 
restructured or resurfaced. The date for our main street, 
Decatur Street, was coming due, and we decided to do it right. 
We decided to build the most sustainable and responsible street 
we possibly could.
    We also realized that a street is much more than just a 
place for cars. Streets are public spaces. They belong to the 
neighborhood, just like a community center or a park. 
Therefore, it should do more than just serve cars. It should 
serve the community as a whole as fully as possible.
    From top to bottom, in this way, we attempted to reshape 
our main street. But as a small town with a very small tax base 
and a working class community, we didn't have the resources on 
our own. We were lucky to establish partnerships with a number 
of nonprofit organizations, the Chesapeake Bay Trust, and 
ultimately, we received help through the Recovery Act and the 
EPA's State Revolving Fund to help us accomplish what we needed 
to accomplish to keep us dry.
    So, from top to bottom, we rebuilt our street. At the top 
we planted native canopy trees, large canopy trees. We replaced 
our streetlights with light emitting diode fixtures, LED 
fixtures, powered by clean wind energy from the Midwest that we 
purchased.
    At street level, we narrowed the street to slow traffic. We 
added bike lanes and sidewalks to promote community 
participation and interaction, health, and wellness. And most 
importantly, at the bottom, we built natural bioretention tree 
boxes, or rain gardens, along the street to naturally filter 
water into the ground, mimicking the way it was in the age 
before strip malls.
    And there is a rendering of it here. And it is a simple 
curb cut with a slightly engineered, just kind of typical rain 
box.
    We had read about this technology used in Portland, Oregon, 
and we wanted it here in our town. In addition to providing a 
beautiful landscape feature, these rain gardens prevent 
pollution and flooding downstream, as 90 percent of the 
stormwater from the street is diverted from the storm drain and 
into areas like this.
    In the process, we created 50 jobs for local contractors.
    Our goal, in addition to staying dry and being responsible, 
is to encourage other communities to also take their 
responsibility for their impact on the environment and on the 
communities downstream from them. We want them to steal our 
ideas. We stole ideas from other people. We have made some 
modifications, and we hope that people steal ours and make 
modifications still.
    So we have placed all of our engineering drawings on the 
Internet on our Web site. And we are building an interpretive 
walking tour of the streets so others can visit and see 
firsthand what we did and think about how they could do it even 
better. We don't need or want any credit. We just want more 
environmental responsibility.
    In terms of cost, the stormwater improvements added little 
additional construction cost. In the long term, we expect to 
see savings in maintenance of the underground stormwater system 
and from cleanup of the Anacostia River and the Chesapeake Bay.
    We expect to see increased revenues from increased property 
values and greater commerce from sightseeing. As of this 
morning, I have four delegations from different parts of the 
region coming to see our street.
    Also, our ribbon cutting and dedication is on October 25th, 
and you are all welcome to come. We have been told that 
Edmonston is the greenest street in the United States. And I am 
not sure if that is true, but I am very grateful to at least be 
in the running.
    And we don't fit the stereotype. We are not a wealthy, 
liberal area. We are a working class community. We are the 
little guys. And if our little town can build a responsible, 
sustainable street like this, anybody can. Again, I thank you 
for this opportunity to speak to you today about green 
infrastructure, and I applaud your consideration of this issue.
    Ms. Edwards. Thank you, Mayor Ortiz.
    Mr. Yocca.
    Mr. Yocca. Good morning Chairwoman Edwards, Ranking Member 
Boozman, and other Members and staff of the----
    Ms. Edwards. Is your microphone on?
    Mr. Yocca. Sorry--and other Members of the Subcommittee on 
Water Resources and the Environment. Again, my name is David 
Yocca. I am the principal landscape architect at Conservation 
Design Forum, an Illinois-based planning, design, engineering, 
and ecological services small business.
    Today I am representing the American Society of Landscape 
Architects, many of whose members, like me, are trained to 
incorporate multiple benefit green infrastructure strategies 
that address stormwater management, water quality, and a host 
of other issues into our neighborhoods and cities. Thank you 
for inviting me today to discuss a few of my professional 
experiences with green infrastructure applications in cities 
large and small. Ten years ago, the City of Chicago asked my 
firm to lead the design process to convert the city hall 
rooftop into the Nation's first green roof demonstration 
project. Our scope for this unique project included the design 
of the green roof system, as well as grading and drainage 
design, plant selection, and construction oversight.
    Back in 1999, when construction began on the green roof, 
there were no local contractors with experience building and 
maintaining green roof systems. Today I work with over two 
dozen local, mostly small business, contractors and suppliers 
of green roof systems, components, materials, and plants. These 
specialized companies make the green roof components, stage the 
materials, install, and then maintain green infrastructure 
systems designed to ensure optimal performance.
    What we are seeing in Chicago is the creation of an 
industry that did not exist 10 years ago. We are not only 
creating sustainable buildings, alleys, streets, and 
neighborhoods, we are creating good-paying, local jobs that 
capitalize upon the talents and expertise of local workers. 
Today the City of Chicago is currently one of the shining 
examples of how greening a city has yielded tremendous 
ecological and economic benefits at the same time.
    Green infrastructure and the low-impact development 
approaches are equally effective in small towns like West 
Union, Iowa. The Iowa Department of Economic Development called 
upon my firm to plan and implement the Green Streets pilot 
program to demonstrate the application of green infrastructure 
strategies appropriate for small Iowa towns and to support and 
stimulate local business in the downtown district. The benefits 
of green streets extend beyond curbside appeal. This project 
showcases state of the art sustainable streetscape strategies, 
including permeable pavement, rain gardens, energy efficient 
lighting, and a district-wide geothermal heating and cooling 
system that is projected to save millions of dollars over its 
design life.
    Small businesses in West Union will directly benefit from 
the streetscape improvements through increased foot traffic and 
retail sales, higher real estate values, lower utility costs, 
which will also serve to attract new local businesses. Further, 
the improvements of the local hydrology will also have a 
positive on Otter Creek, a destination trout stream for Midwest 
anglers, who spend tourism dollars in West Union and the 
surrounding area.
    Charles City, Iowa, also retained us to develop a 
comprehensive plan to address their stormwater issues and 
decaying streets. We designed a green streets plan for a 16-
block area of that city that features permeable paving, parkway 
biosoils, infiltration beds, and curb extensions with 
integrated bioretention. We modeled the hydrologic design to 
capture stormwater runoff from streets, yards, and alleys, and 
provide for the complete infiltration of a 2-year storm event, 
and nearly 90 percent of a 10-year rain event. This project is 
now about 90 percent complete as of today, and we are seeing 
already virtually zero stormwater runoff even in very heavy 
rains that we have experienced recently. After implementing and 
integrating our green strategies, a neighborhood susceptible to 
periodic localized flooding has seen no flooding.
    So why green infrastructure or low-impact development? 
Simply put, when properly conceived and designed, these are 
better performing, longer lasting, and cost-effective resources 
that provide a wide range of multiple benefits. Integrated 
green infrastructure strategies combine leading edge living 
technology with local design, craft, and skill to restore 
neighborhoods and cities to be healthier, more beautiful, and 
ultimately more economically and ecologically sustainable over 
time.
    I encourage the Members of this Subcommittee and their 
staffs to visit the green roof at ASLA's headquarters located 
here in D.C. There you can see firsthand a local example of a 
successful green infrastructure project that is helping the 
District to address its combined sewer overflow problem, as 
well as cleaning the air and providing energy cost savings for 
our organization.
    I thank you for the opportunity to testify in front of this 
Subcommittee, and I especially want to thank you for convening 
a hearing on this very important issue.
    I also want to thank Congresswoman Allyson Schwartz and 
Congressman Russ Carnahan, both of whom are honorary members of 
the ASLA, for their work on these issues, and to Congresswoman 
Donna Edwards, Chairwoman, for taking a leadership role in 
highlighting the varied ways that green infrastructure can help 
our communities. Thank you very much.
    Ms. Edwards. Thank you for your testimony.
    Mr. Richards.
    Mr. Richards. Yes. Thank you, Madam Chair and Member 
Boozman for having us here today.
    NAFSMA is a national organization that represents about 100 
local and State flood and stormwater management agencies, most 
in large urban areas. We represent about 76 million citizens. 
And it is important to note that many of our members are Phase 
I and Phase II jurisdictions falling under the Clean Water Act. 
NAFSMA testified in spring 2009 on the effects of urban 
stormwater, where we focused on green infrastructure. Today's 
testimony reflects some updated information since spring 2009, 
and it clearly shows that our 2009 testimony was on point and 
is supported by the new data.
    NAFSMA endorses approaches like mentioned in H.R. 4202 to 
encourage further research on green infrastructure that is 
relevant to different geographic regions and to provide Federal 
funding and support for that research. We also urge the 
Committee to look at expanding this research effort to other 
best management practices for management of stormwater runoff 
as well.
    NAFSMA is concerned, however, with some direction that we 
see through the U.S. EPA's current rulemaking effort, which 
appears to be headed towards the creation of mandatory Federal 
requirements for nationwide implementation of green 
infrastructure practices to the exclusion of other effective 
stormwater BMPs. We continue to believe, as we have stated in 
the past, that green infrastructure is an appropriate tool in 
the toolbox. However, it should never be considered as the only 
tool for improving the Nation's water quality.
    One of our most significant concerns continues to be that 
there is currently no activity, practice, or method that we 
know of, including green infrastructure, that has proven to be 
effective in restoring an impaired watershed to an unimpaired 
state for all sources of pollutants. Charlotte, North Carolina 
worked with the consultant Tetra Tech in September 2005 as part 
of producing our Post Construction Controls Ordinance and found 
that green infrastructure techniques were no more effective at 
achieving certain in-stream goals than less expensive 
practices. Charlotte now has an ordinance that prefers green 
infrastructure but does not mandate that it be the only choice 
or even the first choice for meeting water quality needs.
    A recent study jointly sponsored by the Urban Drainage and 
Flood Control District in Colorado and Urban Watersheds 
Research Institute evaluated the relative effectiveness of both 
community-based and green infrastructure BMPs in terms of 
reduction of pollutant loads, surface runoff volumes, and the 
long-term economics of keeping the BMPs in operation. It found 
that BMPs that infiltrate water into the ground did not have 
dramatically different pollutant removal abilities than BMPs 
with underdrains that discharged captured runoff back to the 
surface or underground conveyance systems.
    And this brings us to the consideration of the impact of 
green infrastructure on the economy. Not only has green 
infrastructure not been proven to be the best solution for 
improving water quality of receiving waters in all cases, it 
has shown to be one of the most expensive options sometimes for 
trying to improve water quality. The Denver study mentioned 
above found that the unit cost per pound of pollutant removal 
was significantly higher for rain gardens and porous pavements 
than it was for community-based BMPs, such as retention ponds 
and extended detention basins. In addition, Denver has shown 
that the total cost for construction, administration, 
maintenance, and rehabilitation of rain gardens to be over four 
times the costs for conventional stormwater management 
techniques in a 50-year lifecycle for new development.
    Charlotte, even though we have a more limited base of 
information, found similar results of the average cost of 
installing bioretention and rain gardens at over $35,000 per 
acre treated. Improving wetlands and ponds on the other hand, 
came in much lower, with costs of approximately $10,000 and 
$5,000 per treated acre respectively. That can be shown on the 
chart that you are seeing in front of you.
    This chart was produced to show that using retrofits of 
existing facilities could be a much less expensive option for 
treating pollutants.
    We also have another--actually, this chart. And then we 
have another chart, chart two, which shows the annual cost of 
units of pollution removed. And this also shows that the cost 
is higher for bioretention and rain gardens than it is for some 
other methods.
    We have a chart, number three, which also shows that if you 
look at the annual maintenance costs and capital costs, they 
were much higher for bioretention than wet ponds and wetlands.
    This brings us to the effect of green infrastructure on our 
communities. NAFSMA continues to say that MS4s must compete 
with many other local service demands, not the least of which 
are public safety, transportation, and solid waste services to 
fund and manage water quality programs. Local government 
agencies are especially capable of making the best decisions 
for their community given all competing interests. We continue 
to hear from our development community and those particularly 
interested in affordable housing that increasing costs for 
development, including permitting and construction, are hurting 
their ability to provide low-cost housing.
    We can often get more pounds of pollutant removed and more 
acres treated through near-site or off-site regional BMPs for 
far less money spent.
    In summary, green infrastructure can be effective and is 
effective in removing certain pollutants, though not proven to 
be effective in restoring watersheds. Given other choices, we 
would hope the Committee and Congress would realize the need 
for using these options and don't support mandating green 
infrastructure as a one size fits all. Thank you.
    Ms. Edwards. Thank you, Mr. Richards.
    Mr. Boncke.
    Mr. Boncke. Thank you.
    Chairman Edwards, Ranking Member Boozman, and Members of 
the Subcommittee, thank you for the opportunity to testify on 
behalf of the National Association of Home Builders, a 
Washington, D.C.-based trade association, representing 175,000 
members.
    I am currently the chief executive officer of BME 
Associates, located near Rochester, New York. We provide site 
engineering, land planning, surveying, environmental services, 
and construction services. Our firm has earned a reputation for 
well-designed projects that balance environmental 
sustainability, community vision, and the developer's market 
needs.
    I have been working on land development projects for nearly 
40 years, and have seen the transition from developers and home 
buyers wanting large-scale lot developments and homes into 
communities focused on smaller lots and efficient use of 
resources surrounding the development. In fact, home builders' 
experience and support for voluntary energy efficiency and 
green techniques predates many of the available green ratings 
systems today.
    Long before green building and low-impact development were 
part of the construction industry vocabulary, BME and NAHB 
members alike were actively engaged in sustainable development 
as part of an evolving process that has significantly reshaped 
residential construction. Beginning in 2007, I represented NAHB 
on the American National Standards Institute Consensus 
Committee that developed the National Green Building Standard 
for the home building industry. The development of the NGBS is 
the most recent and most dynamic effort undertaken by the 
industry to set compliance markers for green building in the 
various aspects that comprise residential construction: single 
family, multi-family, remodeling, and land development. This 
standard is the first standard submitted to ANSI for green 
residential construction and remodeling in the United States.
    I believe the most important aspect of this standard is 
that it is performance-based, not prescriptive. Although NAHB, 
its members, and BME are invested in the approach taken in the 
development and outcome of the NGBS, each State and region has 
their own approach to sustainable development. As such, I 
believe it is important to support regulations that are 
flexible enough to allow different regions to prepare localized 
guidance based on that region's particular needs. Whether it is 
the physical characteristics of the land or the population's 
housing demands, it is important to avoid implementing a style 
of development that is not possible in a particular region.
    For example, low-impact development does not work on every 
individual site, and LID is only one component of the big 
picture. To successfully implement LID, a property needs the 
right kinds of natural features, such as soils and topography, 
and must have enough land area to accommodate the various LID 
techniques. Therefore, properties that have impermeable soils, 
high water tables, or steep slopes are generally not good 
candidates for LID.
    Additionally, sometimes a regional approach to land-use 
sustainability has better results than site by site regulation. 
It is very difficult to go from extensive years of developing 
our communities in a certain way and then switch gears 
overnight. I would caution that rushing to judgment would 
subdue the creativity we need.
    A good way to ensure regulations are in tune with the 
uniqueness of a region is to install a collaborative and 
education-based approach that addresses all stakeholders and 
considers the feasibility of regulations that are most 
effective to make the progress needed to implement sustainable 
development.
    For example, in New York, where BME is located, we have 
provided training to municipal officials throughout the State 
because we have found it is much easier to educate community 
decision makers on the front end, before the project details 
are discussed.
    Additionally, often local zoning ordinances and 
construction standards lag behind the new innovative planning 
principles. NAHB members often find they cannot implement 
innovative environmental design on a timely basis because the 
local codes have not caught up.
    Builders, developers, and communities need room to be 
creative and find new ways to reach common environmental goals. 
If officials do not understand the challenges of site planning 
and design, it becomes more difficult, more time-consuming, and 
more expensive to implement more sustainable design practices. 
For this reason, we place a very high priority on real-life, 
real-time education and getting information down to the working 
community level.
    My career path 10 years ago found me as president of our 
State home builders association and president of the local 
planning federation at the same time, representing a 
development-based membership and a community official 
education-based membership simultaneously. After finding that 
we were 90 percent on the same page, it was obvious that the 
environment was best served by a collaborative and education 
best effort.
    I am very excited how far we have come in a short period of 
time. While we have much further to go, this collaborative 
approach can only serve the home building industry and the 
environment as we work and continue towards sustainable 
developments. Thank you very much for your time.
    Ms. Edwards. Thank you, Mr. Boncke.
    Mr. Becher.
    Mr. Becher. Good morning, Chairwoman Edwards, Ranking 
Member Boozman, and other Members of the Committee.
    First of all, my name is Drew Becher. I am the president of 
Pennsylvania Horticultural Society. And you all mentioned that 
you would like to visit Philadelphia. I am going to do some 
shameless promotion here. March 6th through the 13th is the 
Philadelphia International Flower Show, the world's largest 
indoor flower show. And you can come see all of our great 
stormwater techniques that my friend Howard and PHS have 
implemented, along with the largest indoor flower show in the 
world. So you can be my guest. Thank you.
    My testimony today will cover basically five areas: 
greening as part of urban revitalization; trees: restoring the 
urban forest and scaling up the plantings; redeveloping parks 
as center of communities; stormwater scapes and green 
infrastructure; and then basically scaling up, building that 
capacity we have been talking about through State and national 
partnerships.
    For more than 30 years, the Horticulture Society has helped 
community revitalization in Philadelphia. PHS has been working, 
cleaning and greening vacant land with significant impact to 
the economics of Philadelphia. As Congresswoman Schwartz 
pointed out earlier, there was a study from the University of 
Pennsylvania that mentioned that a 37 percent increase in home 
values adjacent to neglected land was happening.
    I also want to point out another study that happened in 
Chicago. It was Dr. Frances Kuo from the University of Illinois 
that was actually focused on public housing, where they tore up 
asphalt around all the public housing developments and replaced 
it with trees and just simple grass. Not only is that good for 
stormwater, but actually crime was reduced by half, which 
actually started the transformation initiative in Chicago's 
Housing Authority.
    It should also be known that all of these green 
infrastructure components create jobs. And jobs are really 
important. As part of our urban greening program, Philadelphia 
Land Care, we have created over 230 jobs in the City of 
Philadelphia cleaning and greening vacant lots and corridors 
throughout the city. These are good-paying jobs that actually 
are training people to go on to get jobs with the private 
sector.
    Out of this has spawned our Roots to Re-Entry program, 
which also trains ex-offenders. We have a 65 percent placement 
rate in this particular program with our landscape contractors 
earning $12 to $15 an hour. Many similar programs are going on 
in other cities like Chicago and New York. And it is really 
quite impressive. It is all based on the green economy.
    Trees. Trees are probably one of the simplest forms of 
stormwater management. They are natural and they are beautiful 
at the same time. But we are losing a lot of them in our urban 
areas. We know from the research that also Congresswoman 
Schwartz said, Kathy Wolf of the University of Washington, that 
people actually spend more money when streets have trees on 
them. And that goes directly to the pocketbooks of 
municipalities, to allow them to put more money back into 
stormwater management techniques.
    In New York, Mayor Bloomberg focused on this and created 
MillionTreesNYC, which is by any accounts one of the most 
successful urban tree-planting programs in the country. In just 
over 3.5 years, has gone to plant about 400,000 trees, where 
they were only planting about 8,000 before, and losing 12,000 
at the time, so there was a net loss. And now there is a huge 
net gain in the trees.
    Mayor Daley in Chicago has done the same over the past 
couple decades, planting hundreds of thousands of trees. And I 
think, by the time he leaves office, about 800,000 trees will 
have been planted.
    In the coming months, PHS will launch TreeVitalize One 
Million. Building on our existing regional efforts, this will 
be a three-State, 11-county regional approach to tree planting, 
one of the largest in the United States. And when you are there 
in March, you can come and see how we are doing on that as 
well. We will have that big launch.
    Also redeveloping parks as center of communities. This has 
been something that has not been focused on a lot over the past 
couple decades. During the City Beautiful Movement, when the 
Olmsted brothers, Frederick Olmsted, created Central Park, it 
not only was a place of beauty, but also economic development. 
And we are getting back into that effort with Chicago 
Millennium Park, New York's Highline, Houston's bog parks, and 
LA's Great Park Initiative.
    Parks also create construction jobs. They create planning 
jobs, professional jobs. The maintenance workers at the end. 
And it is a really good investment. I think I would much rather 
be sitting in a park than sitting on I-95 looking at the 
greenscape and the stormwater runoff happen.
    Stormwater scapes as green infrastructure. I worked closely 
with Mayor Daley in Chicago when I was assistant to the mayor 
to support the green roof that was built on Chicago's City 
Hall. It has become an iconic landscape that has ushered in 
support for green roofs and other forms of these stormwater 
scapes throughout the country.
    But that is a big project. And these projects don't always 
have to be massive and large. Programs such as this, such as 
disconnecting downspouts, rain barrels, rain gardens, different 
types of landscaping in people's yards are what it is about and 
where it is.
    To that end, we have at PHS forged a great partisanship 
with Keep America Beautiful and their 600 affiliates across the 
country to introduce this type of landscaping, greening, and 
stormwater management to millions and millions of households. 
And this is all about being able to scale up rather quickly to 
make sure that this infrastructure and everything that we are 
talking about here can actually happen at the community level.
    So with that, I would just like to thank you all, and I 
appreciate your leadership and your interest and support, and 
thank you for the opportunity to speak to you today. And we 
look forward to working with you in the future to implement 
what your dreams are. Thank you so much.
    Ms. Edwards. Thank you, Mr. Becher.
    Mr. Neukrug.
    Mr. Neukrug. Good morning.
    And welcome to a beautiful rainy day in Washington, 
Philadelphia, and New York. It is rain that is well needed. And 
we should all be happy about it.
    My name is Howard Neukrug, and I am the deputy water 
commissioner for the City of Philadelphia. I am honored to be 
here today to testify on behalf of my utility, the City of 
Philadelphia and NACWA, the National Association of Clean Water 
Agencies. I am happy to report to you that experts all over the 
world now fully embrace green infrastructure as a wise and 
sustainable approach for urban reinvestment. The benefits are 
clear: cleaner water and improved economies and public health.
    Now is the time that the policies and rules that govern our 
water resources nationally be adjusted. A major shift is needed 
in investment toward sustainable cities, an economical, 
holistic approach to meet our environmental responsibilities 
for air, land, and water.
    Philadelphia attaches immense importance to its rivers and 
streams, and we seek not just fishable/swimmable goals of the 
Clean Water Act, but accessible and beautiful rivers and 
streams as well.
    I would like to thank the U.S. EPA and the Pennsylvania DEP 
for their support as we seek final approval of perhaps the 
Nation's most ambitious green approach to cleaning our water 
supply. Our program is called Green City, Clean Waters. It is a 
$2 billion, 25-year plan which seeks to achieve a host of 
environmental, social, and economic benefits, while also 
meeting our responsibility toward clean water.
    Our plan will manage one-third of the city's impervious 
cover, one-third of the city's impervious cover, with greened 
infrastructure, and restore nearly 20 miles of urban stream 
corridor. We are essentially demonstrating a whole new way of 
doing business in Philadelphia.
    We have conducted watershed and triple bottom line 
analyses, balanced the full cost of service accounting with 
what our citizens can afford, and created new rules for 
governing our city. We are committed to this program, and we 
are working with all our city agencies, local nonprofits, like 
PHS, and the business community to ensure our success.
    A large part of this new way of doing business is to work 
in our diverse communities, many of which are low-income and 
minority. We are constantly looking for ways to integrating our 
mission of conserving rain water with capital projects on our 
roadways, in our schools, recreation centers, so that every 
dollar spent on green infrastructure and water management also 
provides a double bonus to our city's sustainability and 
livability.
    There are key congressional proposals that would help pave 
the way for us and other cities to invest wisely. The Green 
Communities Act legislation provides greatly needed funding for 
community-based greening programs. The Green Infrastructure for 
Clean Water Act would create Centers of Excellence for green 
infrastructure, and Philadelphia would be honored to be so 
designated. And the work of the Livable Communities Task Force 
is key to paving the way to integrating green stormwater 
infrastructure into transportation, housing, and economic 
development projects. We thank Congress Members Edwards, 
Schwartz, and Blumenauer for their leadership in this area.
    Congresswoman Schwartz and Mr. Becher both invited you to 
Philadelphia. Well, I would like to invite you also. We have an 
event coming up, on December 6th and 7th, which is called the 
Urban Water Sustainability Leadership Conference. We will be 
showcasing U.S. cities from all over the United States that 
embrace these strategies to enhance environmental stewardship, 
economic development, and overall quality of life.
    The changes toward a green approach to water management are 
everywhere. Mayors everywhere are trying to understand the 
relationship between an array of water-related issues and the 
growth and sustainability of their cities.
    Mr. Neukrug. This is our time. This is our opportunity, we 
are so close to realizing a new, green ethic for our cities. 
Getting the water dialogue in all its forms into the process is 
crucial for the success of our cities and their water supplies.
    In closing, Mayor Nutter spoke before a large audience a 
few weeks ago in D.C. on the issue of a call to action for 
addressing U.S. freshwater challenges, and he said, We don't 
have the luxury to ignore this most fundamental of issues that 
will so dramatically impact our Nation's future.
    Thank you for this opportunity to testify.
    Ms. Edwards. Thank you to all of our witnesses.
    At this time, although it is usually the custom of the 
Committee to enter our Members' statements into the record or 
have them use their time for questions for statements, since 
there are so few of us today on this rainy day, I would like to 
offer Mr. Johnson an opportunity to offer his statement.
    Mr. Johnson of Georgia. Thank you, Madam Chairwoman. Thanks 
to the Chairwoman and the Ranking Member for holding this 
important hearing on the impact of green infrastructure and low 
impact development on the Nation's water quality, economy and 
communities.
    Green infrastructure holds enormous promise in its 
potential to help reduce the cost of ensuring access of 
cleaning drinking water for all Americans. Not only are green 
projects often cheaper to build, they can also save on future 
maintenance costs by relying on nature's own cleaning system. 
For several decades, our country has grown at an unprecedented 
pace, and in doing so, has too often paved and built over our 
streams, forests, farms and wetlands. These natural buffers 
reduce the impact of storms and help to filter pollutants out 
of our water. It is time to grow smarter by building a strong 
economy on a foundation of sustainable infrastructure.
    For example, one example of how green infrastructure is 
currently addressing stormwater runoff and water quality is the 
Atlanta BeltLine project in the City of Atlanta. The Atlanta 
BeltLine is a $2.8 billion redevelopment project that would 
shape the way that Atlanta grows throughout the next several 
decades.
    The project provides a network of public parks, multi-use 
trails and transit along a historic 22-mile railroad corridor 
circling down town and connecting 45 neighborhoods directly to 
each other. The Atlanta BeltLine will increase Atlanta's green 
space by nearly 40 percent as the project adds nearly 1,300 
acres of new parks and green space throughout 25 years. It will 
create a linear park with 33 miles of multi-use trails 
connecting 40 parks including approximately 700 acres of 
existing parks.
    I recently had the pleasure of accompanying Chairman 
Oberstar on a visit to the Atlanta BeltLine project to see 
firsthand how the investment in urban parks and green space is 
addressing these water quality issues in Atlanta. During that 
trip, we had the opportunity to visit the historic fourth ward 
park, which incorporates a stormwater basin into a green space 
and uses a natural setting to retain 9 million gallons of 
stormwater and reduce flooding in the surrounding area.
    This park is located on a former industrial site that had a 
paved concrete parking lot and abandoned, dilapidated 
structures. The site was remediated of contamination and 
transformed into a park adding more than 100 trees, spurring 
investment in housing adjacent to the site, and it will also 
assist in mitigating storm damage that has prevented a 2 
million square foot historic building from being developed.
    This project will create a 17-acre park in an urban area 
that will be complete in early 2011.
    I look forward to the day when green infrastructure is no 
longer a subset of infrastructure building but standard 
practice. As we work to provide funding for our Nation's water 
infrastructure, we must consider how best to promote green 
sustainable infrastructure building.
    Thank you, again, Madam Chairwoman, for allowing me to make 
an opening statement, and I look forward to the questions that 
I hear from Members.
    Ms. Edwards. Thank you, Mr. Johnson. I will begin with 
questions. Let me begin with Mayor Ortiz.
    Mayor Ortiz, in your testimony, you indicated obviously 
that you are from a small town, a small municipality, and you 
noted the number of green infrastructure stormwater 
improvements that were made to your Main Street, but you also 
noted the stormwater improvements added little additional 
construction costs. And so I wonder if you could speak in a 
little more detail about those costs and about the choices that 
you made because you, it seems that you had some flexibility 
about what you were choosing to do in order to manage your 
stormwater.
    And in your response, I wonder if you could also speak to 
your reference again to the Recovery Act and the importance 
that you seem to indicate about it bringing about the work on 
the Decatur Street and whether that set aside, that 20 percent 
set aside in the Recovery Act was important to addressing some 
of the concerns and costs in implementing the technologies on 
Decatur Street.
    Mr. Ortiz. Thank you, Madam Chair. I am very happy to 
answer those questions.
    We are an older community. In some parts of the town, the 
stormwater infrastructure is over a century old, so the cost of 
digging up and replacing that infrastructure, which is falling 
apart, is extremely high. By--instead of digging up and 
replacing the entire structure that has to be done sooner or 
later by building these rain gardens, which, depending on size 
can cost from, I don't know, $1,000 up to 12- or $15,000. That 
is a very, very small drop in the bucket for reducing 
substantial stormwater volume from going into the regular 
system.
    So compared to that, if you look at it that way in terms of 
the whole system, it is a tremendous savings. But for us, it 
was, our project altogether, and we did an entire streetscape 
and that includes replacing streetlights and everything on 
about two-thirds of a mile was $1.3 million. But we went whole 
hog on it. We wanted it to be an beautiful street and an 
important economic engine.
    The stormwater features alone, maybe 5 to maybe 10 percent 
of that cost, that is just on that cost, but compared to 
actually digging up and replacing the entire stormwater system 
which needs to be done, a fraction of the cost.
    I would also like to go back to the portion of my testimony 
where I mentioned the $7 million flood control facility that 
was put in. That is a tremendous cost that is borne by the 
taxpayers of our region. And that is not enough. Engineers tell 
us we need probably another $7 million facility to control more 
of the stormwater throughout the region but Cussler is not low 
impact development.
    On the recovery side, that funding was absolutely extremely 
helpful. As I mentioned, we were able to benefit from a number 
of stars aligning for us. We had a number of partners in the 
community in the State of Maryland with a big interest in the 
Chesapeake Bay, and the time was just kind of right with the 
new awareness that we have of low impact development and green 
infrastructure, and they saw us as a pilot project. We were a 
good risk for their grant dollars and investment.
    The SRF money was absolutely, absolutely helpful. And just 
kind of zooming out for a second, there is a lot of money that 
the Federal Government gives back to communities and the 
residents. Very little of that money is for older streets and 
older communities. A lot of that is, as you know, highway 
moneys, interchanges, expansions, that sort of thing. So this 
is a way for us to capture some of those dollars and really 
kind of enhance and bring back the historic character of our 
older communities and to make them livable and beautiful.
    And Madam Chair, also, I just wanted to reference American 
Rivers put out a fantastic report analyzing that set aside, and 
its impact on green infrastructure, so with your permission, I 
would like to enter that with my testimony into the record. It 
is called Putting Green to Work.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Edwards. Thank you. We will accept that for the record.
    I wonder, Mr. Boncke, you know when we passed the American 
Recovery and Reinvestment Act, I recall that there was actually 
some bit of pushback about the set-aside minimum of 20 percent 
for the clean water, State revolving funds to address green 
infrastructure water, energy efficiency improvements, and other 
innovative activities. And in multiple hearings on the Recovery 
Act, it seemed that most accounts of the green reserve actually 
view it as a success, there were more applications than could 
be funded with that 20 percent.
    Did the National Association of Home Builders actually 
support the reserve?
    And do you agree that the growing consensus of the approach 
for Federal encouragement of green technologies was beneficial 
to the green technologies industry?
    Mr. Boncke. Thank you very much for the question.
    There were a few questions in the question that you have 
asked, but as it relates to the set aside in the Recovery Act, 
promoting green technology, absolutely, our support is there. 
We also stick to a fairly firm position that this is also 
evolving technology and we need time to work on it and time to 
develop best management practices. And very often those best 
management practices are found in the field, in the trenches 
and very often, quite frankly, in a private sector nature. So 
we do encourage obviously funding and resources to further 
these thoughts. But we also very much encourage volunteer and 
voluntary methods to come to these same means at the end of the 
day.
    Ms. Edwards. Do you have some sense though, I am just 
curious as to whether the numbers of the experiments that were 
going on with the Recovery Act, and I describe them as 
experiments because we are learning a lot from these 
technologies, that those are helpful as we try to figure out 
the questions that are raised regarding efficiencies, regarding 
savings and regarding the impact to the environment.
    Mr. Boncke. I would say that unfortunately at this 
juncture, we actually don't have enough empirical data. It is, 
to some extent, too soon. You may also be aware of the industry 
itself has not been where it was a couple of years ago in the 
actual construction of facilities. There are actually, quite 
frankly, a lot of projects that are laying fallow right now 
because of the economy.
    So with that being much of the reason, it is hard for us to 
gather empirical data. Likewise, a lot of the technologies that 
we are using are very exciting. They are very new. And the 
efficiencies and cost aspect and, quite frankly, the success of 
innovative technologies that we are using will take a long time 
to see quite frankly if they are working. So we are in a period 
of time where we just don't have enough empirical data probably 
to get a good enough answer back to you.
    Ms. Edwards. Before I turn it over to the Ranking Member, I 
do have a couple of questions for you, Mr. Richards. I am 
having a little bit of difficulty understanding your position 
on the value of low impact development projects. And part of 
the reason is because many of us who have been interested in 
these issues have read about, thought about, and been 
celebrating Charlotte, North Carolina that was recognized last 
year by the EPA for adopting nationally renowned smart growth 
policies and ordinances that incorporate low impact development 
concepts in your master plan.
    And during the formation of these policies, the former 
mayor recognized that ``without smart growth we have no growth 
in the future.'' And if I am not mistaken your city's efforts 
to develop the policies and ordinances were actually 
spearheaded by your boss, city engineer Jim Shoemaker.
    So I wonder if you could explain in your testimony that you 
seem to suggest that the benefits of the policies are unproven 
and have no more benefit than less expensive practices by which 
I assume you mean traditional gray infrastructure.
    Can you tell me whether you agree or disagree with the 
position of your city on the potential benefit of smart growth 
and low impact development policies?
    Mr. Richards. Sure, thank you very much for the question. 
Yes, I would say we, NAFSMA, and also the City of Charlotte 
both agree that green infrastructure and smart growth both are 
very good practices, and they are things that we want to be a 
part of, they are things that we want to continue to pursue.
    I will say from my testimony's perspective, one of the 
things that I want to highlight, and I can do this best from 
Charlotte's perspective, that is where I am from, is that when 
we were developing our post construction controls ordinance, we 
spent a lot of time with our consultant and with our 
stakeholders, over 36 meetings, almost 2 years worth of work, 
where we looked at our impaired waters.
    Now for Charlotte, North Carolina, in Mecklenburg County in 
which we reside, probably 75 percent of our streams are 
impaired. Most of our impairments, if not just about all of 
them, are impaired for sediment and bacteria. Now when we 
looked at what were our options for addressing these 
impairments, our consultant and also the work that we were 
doing was showing us that green infrastructure, while it was a 
good option, and a preferred option in some instances, was not 
the only option, and, in fact, it was not the less expensive 
option for treating our impaired waters.
    That is one of the reasons I believe that NAFSMA says that, 
you know, we recognize this is a great tool, and it fits right 
in the toolbox and should be used where appropriate but 
sometimes it is not the best option. So for Charlotte, with 
smart growth and with green infrastructure while we prefer that 
in our ordinance, we don't require people to use it because 
really, if we are trying to restore our watersheds then some of 
our other methods are a little less expensive.
    Ms. Edwards. But for the record, you acknowledge also that 
Allyson Schwartz earlier testified about the measures that she 
is proposing around green infrastructure, again in the nature 
of experimentation investment and nonprofit organizations to 
work with municipalities, with communities and the legislation 
that I proposed as well, don't have mandates in them. And your 
testimony, though, reflected some concern about a mandate when 
that is not something that we have actually seen.
    We have actually been looking at some of these techniques 
and the nature of adding to the toolbox just as you described.
    Mr. Richards. Yes, ma'am. That is a reflection of what our 
NAFSMA members are seeing across the Nation. I guess what I am 
trying to reflect is whether there is actual, actually a 
mandate or not. What we are seeing in permit renewals, is 
language that says, you are going to use green infrastructure, 
and you are going to show us how you are proposing that this is 
your first choice, and if that choice doesn't work then you 
might look at something else. And I am just, that is what 
NAFSMA is seeing through our membership. So we are concerned 
about that.
    Ms. Edwards. Thank you. Mr. Boozman.
    Mr. Boozman. So you are talking about permit renewals 
through the EPA?
    Mr. Richards. Yes, sir.
    Mr. Boozman. Very good.
    Mr. Ortiz, what sorts of operating O&M costs does your 
community have for the green infrastructure compared to the 
traditional gray?
    Mr. Ortiz. I am sorry, sir, you said operating costs?
    Mr. Boozman. Yes, in other words, once you put the 
structure in, there is more, I would assume that there is more 
maintenance regarding that concept versus the traditional gray 
infrastructure.
    Mr. Ortiz. That is an excellent question. Primarily it is 
pulling weeds in the rain gardens and in the tree boxes. So we 
have a public work staff that we already have, it is a little 
more work for them, but we think it is a priority, and we have 
also hired a landscape firm more on the beautification side, 
but, of course, there is overlap and I think we budgeted $3,000 
to bring them on board in the fiscal year.
    Mr. Boozman. It sounds like you have got some drainage 
problems in the area and things. Have you changed your zoning 
so that you wouldn't get yourself in the same situation? Are 
you zoned now for low impact?
    Mr. Ortiz. We have rezoned. We don't have power over our 
own zoning, but we have been working with our county and 
regional partners who do have authority over that. There is 
some, and there have been some changes in that way, but in the 
State of Maryland, we have been coming to a consensus through a 
long process on stormwater management and requiring some 
waivers and exceptions that all new development and 
redevelopment have to meet certain thresholds for better 
stormwater management. And we hope that that will make a 
difference in the long term.
    Mr. Boozman. So you are in the process of doing that? You 
haven't done it yet or?
    Mr. Ortiz. The law was recently passed in 2007. It was 
passed in the recent State general assembly session the 
grandfathering was extended so it actually hasn't gone into 
force. I don't believe it will begin going into force until 
2013.
    Mr. Boozman. Mr. Yocca, again, along the same line, can you 
describe the difference between gray infrastructure and green 
infrastructure in terms of cost to water, again, water 
benefits, employment numbers, with O&M?
    Mr. Yocca. Yes. Thank you, Mr. Boozman. A couple of things. 
Generally, as part of the integrated planning process in 
designing a green infrastructure project, we look at life cycle 
costs, both capital costs and long-term operations and 
maintenance costs, and for every case, whether it is a private 
development or a public infrastructure project have to 
demonstrate that there is appropriate budget and resources to 
implement and manage that project over time, and oftentimes, 
that is sitting within either existing or even shrinking 
budgets.
    In the case of the West Union project that I mentioned, we 
went through that analysis and looked at each aspect, or each 
element of the green infrastructure and evaluated the 
combination of capital costs and operations and maintenance 
costs, and the end result is that the capital costs, for some 
of the items are actually more than conventional materials, 
other things are less.
    The aggregate is actually, of the total project, was more 
than what the conventional approach was with additional 
qualities and benefits added in. So it is costing more, but 
there are more elements and attributes of the project. In terms 
of operations and maintenance, the aggregate cost is actually 
less over time. Some of the elements are much more durable and 
require albeit different but less costly maintenance. And so, 
for the example of the porous paving, for example, it is 
estimated to be a 50-year street without repavement. There 
needs to be annual vacuuming and a few other maintenance items, 
but those are less costly than what the city was spending in 
maintaining its asphalt street in the same area.
    There is an additional cost in terms of the bio retention 
and landscape elements. And in the case of West Union, they 
didn't have the staff, it is a very small town, only 2,500 
people they didn't have public works staff that were capable of 
maintaining that landscaping so we actually worked with a group 
of local master gardeners who agreed to take responsibility for 
that.
    So several of you mentioned the fact that it is not a one-
size-fits-all solution, and that is very much what has been our 
experience, that part of the design process has to identify 
what are the resources, both for capital costs and for long-
term maintenance and operations and fitting the design to those 
conditions.
    Mr. Boozman. Mr. Richards, you mentioned that the mandate 
without the mandate situation that you are in. Do you think the 
EPA has the authority to do that?
    I know they are doing it.
    Mr. Richards. I think it is our opinion that they do not 
have the authority to do that.
    Mr. Boozman. Very good.
    And again, I keep going on about the, I would agree with 
that. I keep coming back to the cost, and I think that is 
important because we have had the stimulus and that money has 
essentially been spent or allocated so there is not going to be 
any more money. We are running almost a trillion and a half 
dollar deficit right now, so money is tight and I think 
everybody would agree with that. So I think the cost really is 
important as far as the practicality of moving forward.
    Mr. Boncke, can you comment on that also about the 
difference in cost to water quality benefits from your 
perspective?
    Mr. Boncke. Certainly, and thank you for the question.
    I would like to try and answer it quickly in a couple of 
ways. First, in the absence of certain empirical data as 
whether some of these techniques are working and all, the costs 
per individual home of the stormwater regulations as they have 
evolved over the last few years are costing somewhere in the 
neighborhood of $3,500 to $10,000 per home depending on regions 
you live in. That is very significant as a starting number. But 
more specific to your question, it is very interesting if we 
allow our creative and technical juices to work properly. And I 
would like to just give you a scenario on that.
    Incrementally, site by site, item by item, the costs can, 
in fact, be significant and out of proportion. And I very much 
appreciate some of the comments from Mr. Richards. We also have 
to look at the future of maintenance costs. Ultimately, we can 
design things that nature can be the maintainer of a situation 
rather than trucks and bulldozers. That is very significant to 
our communities. So while the upfront costs may be and are 
proving to be a little bit more, we can also see benefit to the 
down-the-road cost for our communities.
    But a very quick scenario if I could, I started my career 
designing narrow streets without gutters, very practical, put 
the water in the ground type of solutions. I also watched 
neighborhoods, as I was a youngster, drain the oil out of their 
cars and walk out to the street and dump it into the inlet. 
That may be why I ended up being a civil engineer, I don't 
know. But over a 40-year career, I have watched our communities 
build codes and standards that ultimately we are building the 
Roman empire. Streets got wider, gutters got put in, we spent a 
lot of money having to then create pipes to send the water 
away, then 10 years later, we worried about uh-oh, too much 
quantity, and we got to knock it down.
    We started to do that site by site. This is a wonderful 
period of time for me. We are coming full circle to many of the 
principles I had 40 years ago with the water quality aspect of 
things. But I would also submit that incrementally, I think the 
costs right now are often too high when we treat them item by 
item, site by site. If you take a regional detention facility 
that was built 20 years ago solely for the purpose of 
detention, of volume, and now go back and spend some money 
wisely in the development process to go back and retrofit that 
facility for the greater good of quality rather than go back 
incrementally site by site, those dollars can be far more cost 
effective than site by site. Also, the maintenance of that one 
larger facility can be far less than incrementally.
    So while not giving you empirical numbers, this is what we 
are seeing evolving, but we need to be very careful that there 
is, as chairperson said, there is no one answer to all 
solutions. But I am very excited at the balance between looking 
at initial cost and saving our communities money.
    And when the developer walks away from the site and sold 
his site, he necessary doesn't have to maintain that for the 
next 20, 30 years, it is the community that does. And I will 
say we are developing a lot more sensitivity within our 
industry, the maintenance, than the actual up front 
construction. I hope I have come close to the question without 
numbers.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Edwards. Thank you. Mr. Johnson.
    Mr. Johnson of Georgia. Thank you Madam Chair.
    Anyone familiar with the National Urban Runoff Program that 
would talk about specific methods and design tools for 
stormwater runoff that was formulated in the 1970's, as I 
understand it? Is anyone familiar with that program? Well, tell 
me something, is there anyone who thinks that the Federal 
Government should have the foresight to fund studies that could 
recommend, or at least highlight specific methods, design tools 
and even software to deal with the issue of stormwater runoff, 
suggested methods those kinds of things? Is that something that 
should be a Federal pursuit or should it be left more to local 
authorities to impose standards?
    And I guess that question is somewhat, does the Federal 
Government have a role here is what I am trying to ask? And if 
everyone could respond if you desire that is fine. Starting 
with Mr. Ortiz.
    Mr. Ortiz. Thank you for the question, Congressman. And I 
am not familiar with the program, so I plead a little bit of 
ignorance. But in general, as we all know, a number of these 
issues go across State borders and it requires a solution, 
depending on the region, depending on the waterway or estuary 
or bay or river, so it has to be site specific, but I think 
absolutely. These, in a lot of ways, what we have talked about 
here, are not new technologies that have been dreamt up in the 
hauls of academia somewhere. They are actually fixing problems 
that we have created over the last 40 to 60 years in trying to 
restore natural processes. We are actually going back and 
trying to mimic the natural processes that worked very well for 
many millennia before we paved over too much of our lands.
    So I do think that there is a role for the Federal 
Government. I believe it should be regionalized and 
contextualized as appropriate, and I do think it is much more 
of a restoration than really doing something entirely new.
    Mr. Johnson of Georgia. All right thank you. And I would 
remind you I have got a short period of time left for responses 
so if you could condense them, that would be great.
    Yes, sir.
    Mr. Yocca. Thank you, Congressman. I would say that there 
are certainly things that the Federal Government can do to 
continue to assist in the exploration and promotion of green 
infrastructure practices to the benefit of local communities.
    One of the things that has been, one of the obstacles I 
think, some of the panelists have already shared in terms of 
the implementation of the sustainable strategies is having the 
performance statistics to back up how to implement these 
systems in the most efficient way. A lot of times, some of the 
costs that are incurred are because of redundancy, and the only 
way to eliminate that redundancy is to have confidence in the 
performance within a particular area or geographic location of 
the perform of these green infrastructure standards.
    That is why a lot of the work that we do and others are on 
demonstration projects that are set up to monitor that 
performance and then to fine-tune and adjust and inform the 
models and other tools that are used to design and implement 
and ensure that the systems are proper.
    And just one other quick point along those lines. The 
American Society of Landscape Architects, along with other 
partners, including EPA, has developed a tool called the 
Sustainable Sites Initiative, which is geared toward this very 
thing. It is to identify one of those ecosystem services that 
green infrastructure can provide and to encourage monitoring 
and measurement in reporting back in different geographic 
locations on the performance of those tools. Thank you.
    Mr. Richards. Yes, sir, thank you for the question.
    I will say that NAFSMA has recommended on the record 
several times in our discussions a NIRP II program which would 
be kind of a second look at urban runoff. We believe science is 
so important to this decision for new regulations that we know 
EPA is pursuing over the next couple of years and so we believe 
there should be some type of scientific forum to look at this 
and a NIRP II-type program would be appropriate for that, and 
Federal funding to support that would be good.
    Mr. Boncke. Thank you. We will be very brief. Actually, 
from the National Home Builders perspective, we believe the 
Federal Government should encourage, to the best extent 
possible, incentivize, but not mandate or regulate these 
issues.
    We do believe that through that encouragement and 
incentive, we should leave it to regional and local to develop 
their own standards. New York State has very successfully, with 
the engineering, building and many other communities and 
stakeholders, developed an excellent best management practices 
manual as a working document. But we believe it should be 
regional and local, and that is also importantly not a 
political view or statement. It is really an engineering view, 
geology, hydrology, all of the factors that go into these 
issues are very, very localized and regionalized throughout the 
country. Thank you.
    Mr. Becher. I agree. I think local control, regional 
control is always good. However, I do think there is a place 
for the Federal Government, much like the Energy Star program 
and others, as long as the Federal Government sets, I think, a 
very straightforward sort of framework and program for it, I 
think it could be, actually, quite successful.
    Mr. Neukrug. I am unfortunately old enough to remember 
NIRP, and I remember the engineers running out trying to 
capture that first cup of rainfall to be able to bring it back 
to the labs and analyze it. It became the basis of everything 
we really know today about pollution in stormwater. And without 
that NIRP program, we in the United States and throughout the 
world would be at a loss of quite a bit of data. So it was very 
valuable then.
    Is there still a role for the Federal Government? Yes there 
certainly is. And I think I have heard the words already, 
incentivize, leverage, support, but both private investment, 
public investment, research along the lines of what EPA does in 
Edison, New Jersey and elsewhere and support through programs 
like the two Acts that have been discussed today where both of 
them provide funding to encourage folks back home to figure out 
how green infrastructure can be made to work appropriately.
    Mr. Johnson of Georgia. Thank you for that response or for 
those responses. And it just seems to me that with runoff from 
creeks, streams into rivers which flow through and between 
States which capture that runoff, it seems that certainly, and 
some of those rivers may even are navigable, and I think they 
are, many navigable waters, I think that certainly the Federal 
Government has a role to play in making sure that our rivers 
contain as few contaminants as is possible. And we can 
certainly get to that through standards and incentives that 
States and local governments can follow. So I think we simply 
have to start paying attention to smart growth and ways in 
which we can exist with growth along with protecting our 
environment. So I thank you. Thank you, Madam Chair.
    Ms. Edwards. Thank you, Mr. Johnson. I just have a couple 
of additional questions. A real follow-up for Mr. Neukrug. We 
focus a lot here on cost effectiveness, on whether investing in 
or what is the balance of gray infrastructure versus green 
infrastructure some combination of both, and as you know, Mr. 
Neukrug, many cities are considering low impact development and 
green infrastructure approaches and technology, and those 
cities are also under consent decrees, I believe Philadelphia 
has been under a consent decree around its discharges. And so 
the advantage of pure gray infrastructure approach is that we 
know, with a high degree of certainty, that the installation of 
pipe Y is doing to result in the decrease of X number of 
gallons and so it is certain, you know what you have to do, and 
you know what the result is going to be.
    I think green infrastructure, on the other hand, we are 
learning a lot about, and it doesn't give us the same degree of 
certainty. But I wonder, if you could discuss when Philadelphia 
decided, when Philadelphia had a choice about how it was going 
to comply, find itself into compliance under the consent decree 
and could have chosen purely a gray infrastructure approach or 
a green infrastructure approach and made some decisions there, 
can you tell me how those decisions came to be and what the 
relative consideration was with respect to cost and then how 
you demonstrate then to the enforcement authorities that you 
are meeting your compliance requirements?
    Mr. Neukrug. Thank you for that question.
    I think Mr. Boncke addressed a bit of this earlier on when 
he talked about the way we have designed our cities for the 
past 200 years and how it made sense to take water and move it 
away from the houses and the businesses and move it into our 
rivers and streams, and then through sewers into our rivers and 
streams. And as we went along, it still made sense to harden 
our land.
    Today, it doesn't make any more sense. We have this 
incredible infrastructure that is in place in Philadelphia and 
throughout the country dealing with stormwater, dealing with 
waste and then sewage. And the question is, what is the next 
step? Is this the approach that we are going to take for the 
next 200 years? And we are at this turning point now where 
either we take this system that was placed in here and hardened 
our cities from the environment and do we continue that, and is 
that our approach for the next 200 years by building on to 
those systems? Or do we now take this more soft approach, use 
the basis of what is there, and manage our water in a different 
way that also creates other benefits for our cities?
    So that is kind of where we are looking at, in terms of the 
amount of money we are spending, it is Congress and EPA who 
have decided that the priority for our cities in environmental 
legislation is water. And there is a desire for all of us to 
move down this road to reduce as much as possible the amount of 
overflows going into our rivers and streams. And the question 
becomes what is the best way to spend that money?
    And every time that we build a new tank or a tunnel in the 
city of Philadelphia, we are helping that one cause. But we are 
doing nothing about climate change, we are not bringing more 
people into Philadelphia, we are not making the quality of life 
for Philadelphians better, we are not improving or protecting 
public health from issues other than someone swimming in the 
water.
    So if you look at the green infrastructure approach, what 
we found is that for the same dollar, we can achieve that same 
first goal of water protection and add to that this other layer 
of sustainable cities.
    And the last thing I want to say is that as a water utility 
in a city that doesn't have a lot of money, when we look at the 
amount of money, we are talking about spending which is $2 
billion and we looked at we need to recover that from our 
ratepayers, and we looked down the road and see what is 
Philadelphia going to look like in 10 years, in 20 years in 50 
years, it is very critical for the water utility and for the 
ratepayers every dollar we spend to spend it in a way that 
promotes the growth and sustainability of our city.
    So to sustain our utility, we are sustaining the city of 
Philadelphia and managing the water issues. The cost benefits 
of any one piece is judgmental and is up for discussion. But 
the triple bottom line analysis is very clear, just about all 
of this, that green infrastructure really is the approach. I 
won't speak for every city in the country, but certainly for 
the city of Philadelphia and other mayors and other water 
utility managers, I am speaking to, it is also very clear that 
this is the way to move. And the next question for all of us is 
just how do we help this along? And how do we not miss this 
opportunity that we have in front of us?
    Ms. Edwards. And so just to follow up, again, in your view, 
it was the ability to consider green infrastructure as part of 
the approach that you were taking, but you are not aware of any 
mandate for green infrastructure, is that correct?
    Mr. Neukrug. I have been very curious hearing that today 
because I am feeling just the opposite. I feel like the mandate 
is for gray infrastructure. The easiest thing for a city to do, 
for a utility to do, for EPA to approve, is a tunnel, a tank or 
other concrete system to deal with the issues at hand.
    The complicated part that takes leadership from a mayor, 
like Mayor Nutter, is to accept this new approach that takes 
more work and more energy by the city governments to allow for 
this green infrastructure to happen. What we are looking for is 
for some understanding, and I don't know how you we are going 
to get there, whether it is the Clean Water Act or some other 
entity to eventually allow all of us to be thinking once again 
more holistically about what our real goals are here for 
environmentally for our cities and for our country.
    Ms. Edwards. Am I correct in recalling that at in fact, at 
least in the instance of Philadelphia, the EPA would have been 
much more quick actually to approve the pipe as opposed to some 
of the green infrastructure techniques----
    Mr. Neukrug. I don't want to put words in EPA's mouth, but 
it is hard for EPA to approve a green infrastructure program 
today because there are metrics that are needed. There are some 
uncertainties out there. And all parties, the cities, the 
Congress, the EPA, all need to take some level of risk as we 
move to this new way of looking at infrastructure in our urban 
centers, so going from this very hard approach to this very 
soft approach.
    Ms. Edwards. And it does speak to Mr. Richards' concern 
there that we make sure that we do the science the right way as 
well so that we can strike the appropriate balance.
    With that, I would like to thank all of our witnesses 
today. I look forward to continuing this discussion in this 
Committee making sure that we come up with a framework that 
allows our cities, municipalities, the tools and flexibility 
that they need to incorporate green infrastructure techniques 
and the array of ways in which we need to protect our 
stormwater and our clean water. Thank you very much for your 
testimony today. And with that, we are adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Link for Green City Clean Waters Report
    http://www.phillywatersheds.org/ltcpu/LTCPU--Summary--
HiRes.pdf




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
